CERTIFICATE OF SERVICE
No. TBD
Lawrence Mulligan
Petitioner(s)
v.
Bruce Jalbert and Pamela Jalbert
Respondent(s)
STATE OF MASSACHUSETTS)
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the
Lawrence Mulligan Petition for Writ of Certiorari, by mailing three (3) true and correct copies
of the same by USPS Priority mail, postage prepaid for delivery to the following addresses:
John M. Wolfson, Esq
Feiner Wolfson LLC
One Constitution Plaza, Ste. 900
Hartford, CT 06103
(860) 713-8900
j wolfson@feinerwolfson.com
Counselfor Bruce Jalbert and Pamela Jalbert

Lucas'DeDeus

July 10, 2019
SCP Tracking: Mulligan-100 Brookhaven Court-Cover White

